FILED: June 19, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6333
(1:14-cr-00107-LO-1)
(1:16-cv-00631 -LO)

UNITED STATES OF AMERICA'
Plaintiff - Appellee
v.
LOUIS ANTHONY JACKSON
Defendant - Appellant

JUDGMENT
In accordance with the decision of this court, a certificate of appealability is
denied and the appeal is dismissed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR. CLERK

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-6333
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
LOUIS ANTHONY JACKSON,
Defendant - Appellant.

Appeal from the United States District Court for the Eastern District of Virginia, at
Alexandria. Liam O’Grady, Senior District Judge. (l:14-cr-00107-LO-l; l:16-cv-00631LO)
Submitted: June 16, 2020

Decided: June 19, 2020

Before MOTZ and KING, Circuit Judges, and SHEDD, Senior Circuit Judge.
Dismissed by unpublished per curiam opinion.
Louis Anthony Jackson, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

PER CURIAM:
Louis Anthony Jackson seeks to appeal the district court’s order denying relief on
his 28 U.S.C. § 2255 (2018) motion. The order is not appealable unless a circuit justice or
judge issues a certificate of appealability. See 28 U.S.C. § 2253(c)(1)(B) (2018). A
certificate of appealability will not issue absent “a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2) (2018). When the district court denies relief
on the merits, a prisoner satisfies this standard by demonstrating that reasonable jurists
could find the district court’s assessment of the constitutional claims debatable or wrong.
See Buckv. Davis, 137 S. Ct. 759, 773-74 (2017). When the district court denies relief on
procedural grounds, the prisoner must demonstrate both that the dispositive procedural
ruling is debatable and that the motion states a debatable claim of the denial of a
constitutional right. Gonzalez v. Thaler, 565 U.S. 134, 140-41 (2012) (citing Slack v.
McDaniel, 529 U.S. 473, 484 (2000)).
We have independently reviewed the record and conclude that Jackson has not made
the requisite showing. Accordingly, we deny a certificate of appealability and dismiss the
appeal. We dispense with oral argument because the facts and legal contentions are
adequately presented in the materials before this court and argument would not aid the
decisional process.
DISMISSED

2

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Alexandria Division
)
)
)
)
)
)
)

United States of America,
v.
Louis Anthony Jackson,
Petitioner.

Case No. l:14-cr-107
Hon. Liam O’Grady

ORDER
This matter comes before the Court on Petitioner Louis Anthony Jackson’s pro se motion
to vacate, set aside, or correct his sentence pursuant to 28 U.S.C. § 2255.1 Dkt. 43. Specifically,
Petitioner has moved this Court to vacate Count 2, a violation of 18 U.S.C. § 924(c). For the
following reasons, Petitioner’s motion must fail.
I. PROCEDURAL BACKGROUND
Petitioner pleaded guilty to a two-count criminal information. Count 1 alleged violations
of 18 U.S.C. §§ 924(c) and 2, specifically, the use, carrying, and discharge of a firearm during
and in relation to a crime of violence. Count 2 alleged violations of 18 U.S.C. §§ 924(c) and 2,
specifically, the use, carrying, and brandishing of a firearm during and in relation to a crime of
violence. The § 924(c) charges were predicated upon two separate instances of Hobbs Act
robbery. See Dkt. 27; see also Dkt. 26. On June 27, Petitioner was sentenced to thirty-five
years’ imprisonment, consisting often years on Count 1 to be served consecutively with twenty-

1 Petitioner initially moved pro se and the Office of the Federal Public Defender was later
appointed to represent him.

five years on Count 2, as well as five years of supervised release, $17,134.00 restitution, and a
$200 special assessment. Dkt. 35.
Petitioner moved under 28 U.S.C. § 2255 to vacate his sentence on Count 2 on June 6,
2016. Dkt. 43. He argued that his conviction was invalid in the wake of the Supreme Court’s
decision in Johnson v. United Stales, 135 S. Ct. 2551 (2015), which held the “residual clause” of
18 U.S.C. § 924(e)(2), a definition of “violent felony,” to be unconstitutionally vague. Dkt. 44.
The Government moved to dismiss the motion on August 18,2016, arguing that since Johnson
did not specifically invalidate § 924(c)(3)(B), the motion was premature. Dkt. 48. This Court
stayed the case pending cases pertaining to Johnson's application. Dkt. 52.
On April 17,2018, the Supreme Court in Sessions v. Dimaya, 138 S. Ct. 1204 (2018),
held the

residual clause of 18 U.S.C. § 16’s definition of “crime of violence”—nearly identical to

iha' in 5 924(c)(3)’s residual clause—to be unconstitutionally vague. See id. at 1210. Then, on
June 24,2019, the Supreme Court held the § 924(c)(3) residual clause unconstitutionally vague.
See United Slates v. Davis, 139 S. Ct. 2319,2336 (2019). On August 15,2019, this Court
ordered the Office of the Federal Public Defender (“FPD”) to represent Petitioner in this motion
and to submit any supplemental briefing or evidence needed to support Defendant’s motion.2
Dkt. 60. On September 16,2019, the FPD responded to the Order by stating it would not submit
any further argument or evidence in the matter. Dkt. 62. The Government has filed its response,
Dkt. 63, and the motion is now ripe for disposition.

2 The Court’s Order was to ensure appropriate briefing in the wake of United States v. Simms,
914 F.3d 229 (4th Cir. 2019), as well as Davis.
2

II. STANDARD OF REVIEW
Petitioner is entitled to relief under 28 U.S.C. § 2255 if he demonstrates that: (1) the
sentence was imposed in violation of the Constitution or laws of the United States; (2) the
sentencing court was without jurisdiction to impose the sentence; (3) the sentence was in excess
of the maximum authorized by law; or (4) the sentence is otherwise subject to collateral attack.
28 U.S.C. § 2255. Petitioner bears the burden of proving his grounds for collateral relief by a
preponderance of the evidence. See Vanater v. Boles, 377 F.2d 898,900 (4th Cir. 1967).
Section 924(c) of Title 18 of the United States Code forbids the use, carrying, or
brandishing of a firearm “during and in relation to any crime of violence.” Id § 924(c)(1)(A).
Section 924(c) defines “crime of violence” as any felony offense that, (A) “has an element the
use, attempted use, or threatened use of physical force against the person or property of another,
or, <B) “by its nature. « • involves a substantial risk that physical force against the person or
property of another may be used in the course of committing the offense.” Id § 924(c)(3).
Subsection (A) of the definition is known as the “force clause,” and subsection (B) is known as
the “residual clause.” In Davis the Supreme Court held the § 924(c)(3)(B) “residual clause” to
be unconstitutionally vague, and it is therefore unable to support convictions under
§ 924(c)(1)(A).
Pro se filings have “less stringent standards than formal pleadings drafted by lawyers.”
Haines v. Kerner, 404 U.S. 519,520 (1972). Therefore, a document filed pro se is to be liberally
construed. See, e.g. , Erickson v. Pardus, 551 U.S. 89,94 (2007); Estelle v. Gamble, 429 U.S. 97,
106(1976).

3

a certificate pf appealability from a circuit justice or judge. See 28 U.S.C. § 2253(c)(1)(B); Fed.
R. App. P. 22(b). For the reasons stated above, this Court expressly declines to issue sUch a
certificate.

Liam »
United StatSs District Judge

January VOv 2020
Alexandria, Virginia

5

